U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gordillo-Escandon v. United States, No. 20-7207
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 20,
2021. The government’s response is now due, after one extension, on April 26, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7207
GORDILLO-ESCANDON, MANUEL DE JESUS
USA

HOWARD WALTON ANDERSON
LAW OFFICE OF HOWARD W. ANDERSON III,
LLC
PO BOX 661
176 E. MAIN ST.
PENDLETON, SC 29670
864-643-5790

